SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Mona Mustafa
2208 Countryside Ln,
Lindenhurst IL 60046

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

September 30, 2020
In re:

Mona Mustafa, petitioner, v. The Illinois Human Rights
Commission et al., respondents. Leave to appeal, Appellate Court
Second District.

126156
The Supreme Court today-DENIED theJ?etition for Appeal as. a Matter of Right, in the.
above entitled cause.,
-»/

'"

•

.

*

■*'

■

The mandate of this Court will issue‘to the Appellate Court on 11/04/2020.
■«•

*. •

Very truly yours,

dM
Clerk of the Supreme Court

App.la

126156

2020IL App (2d) 170040-U
No. 2-17-0040
Order filed June 8, 2020
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
MONA MUSTAFA.
Petitioner-Appellant,
v.

THE ILLINOIS HUMAN RIGHTS
COMMISSION. CHAIR ROSE MARY
BOMBELA-TOBIAS. COMMISSIONERS
LAUREN BETH GASH. DUKE ALDEN,
HERMENE HARTMAN. MICHAEL
BIGGER. STEVE KIM. ROBERT A.
CANTONE. AMY KIJRSON. HAMILTON
CHANG, DIANE M. VIVERITO, TERRY

)
)
}

Appeal from the Illinois Human
Rights Commission.

)

No. 12-ALS-574

i

)
■)

COSGROVE. PARTTCIA BAKALIS

YADGIR. and NABI R. FAKRODD1N,
ILLINOIS HUMAN RIGHTS COMMISSION
CHIEF LEGAL COUNSEL DONYELLE
GRAY. EXECUTIVE DIRECTOR N. KEITH
CHAMBERS. ASSISTANT LEGAL
COUNSEL EV1LIO MORA,
ADMINISTRATIVE LAW SECTION CHIEF
ADMINISTRATIVE LAW JUDGE
MICHAEL J. EVANS, GERTRUDE
McCarthy. Illinois department
OF HUMAN RIGHTS, NGOZI
OKORAFOR, rocco claps, carol
CERA, LON MELTESON.'CARMEN DIAZ.
NSI INTERNATIONAL, INC., FRANK ■
LANDI. FARRA CHAN. SANFORD
FRANK. JAMIE S. FELSEN, JOSEPH M.

%

)
)
)
)
)
)
)
)

)
)

)
)
)

)
)
)
)
)
)

)
)
)
)

A-001
App.2a
SUBMITTED - 9728641 - Mona Mustafa - 7/10/2020 12:05 PM

V

126156
2020IL App (2d) 170040-U

LABUDA. and MILMAN LABUDA LAW
GROUP. PLLC,
Respondents-Appellees.

)
)
)

JUSTICE SCHOSTOK delivered the judgment of the court.
Justices McLaren and Bridges concurred in the judgment.
ORDER
Held: Grant of permission to appear pro hac vice was not an abuse of discretion, and
Illinois Human Rights Commission properly denied request for rehearing en banc.

112

Petitioner Mona Mustafa appeals pro se from the dismissal of her retaliation complaint by

the Illinois Human Rights Commission. We affirm the dismissal.

1!3
1! 4

I. BACKGROUND
Mustafa filed a charge with tine Illinois Department of Human Rights (Department) in

2010, alleging that her former employer, NSI International, Inc., retaliated against her for opposing
discrimination. After investigation, the Department dismissed the charge for lack of substantial
evidence. Mustafa sought review' of the dismissal by the Commission.
«r5

While that review' was pending before the Commission, NSI sued Mustafa in New' York

(New York case). In July 2011, Mustafa and NSI settled the New York case. Pursuant to the
settlement agreement, Mustafa was to receive $60,000 and a neutral employment reference, and
Mustafa agreed to withdraw her claims (specifically including the Illinois charge at issue here) and
not to “directly or indirectly commence, continue, assist, or participate in any lawsuit, charge,
claim or proceedings, in any forum (including but not limited to any court or agency), against
NSI."
f, 6

NSI paid Mustafa the $60,000. However, Mustafa did not withdraw her appeal that was

pending before the Commission. Unaware of the settlement, in August 2012 the Commission

-2A-002
SUBMIT1 ED - 9728641 - Mona Mustata - //1072020 '12:05 PM

App.3a

126156
2020IL App (2d) 170040-U

vacated the Department’s dismissal of Mustafa’s charge and remanded it to the Department for a
finding of substantial evidence. Thereafter, the Department notified Mustafa of the Commission’s
decision and asked her to notify it if she wished it to file a complaint with the Commission on her
behalf. Mustafa asked the Department to file the complaint, and it did so. The Commission set
the public hearing on the complaint for December 2012.

V

Shortly after the complaint (Illinois complaint) was filed, respondents Jamie Felsen and

Joseph Labuda, attorneys for NSI who were licensed to practice law in New York, filed a motion
asking the Commission to admit them pro hac vice for the Commission proceedings. They also
asked for more time to respond to the complaint because of certain actions taking place in the New
York case. (The court in that case had asked Mustafa to provide a letter stating whether she
intended to withdraw the Illinois complaint pursuant to the terms of the settlement.) NSI’s
response to the complaint was initially due November 1,2012. Mustafa did not provide any letter
to.the New York court by then. On November 2, NSI filed a motion to dismiss the Illinois
complaint on the grounds that Mustafa was contractually barred from commencing the action
under the settlement.

18

Mustafa objected to the request for pro hac vice admission. She also moved to default NSI,

asserting that it had not filed any response to the complaint by the November 1 deadline. NSI
responded that it had good cause for the one-day delay because (1) it was waiting until after the
deadline for Mustafa to respond in the New York case, and (2) Felsen and Labuda were unable to
file the response earlier because of power outages due to Hurricane Sandy. The Commission
administrative law judge (ALJ) assigned to the case issued an order converting the December
hearing date to a status and ordering the parties to appear1.

- D -

A-003
SUBMITTED - 9728641 - Mona Mustafa - 7/10/2020 12:05 PM

App.4a

126156

2020IL App (2d) 170040-U

19

At the December status date, the ALJ granted the motion for pro hac vice admission and

NSi’s motion for an extension of time. She denied Mustafa’s motion for default and granted her
time to respond to NSI’s motion to dismiss. Mustafa filed a response arguing (1) that the ALJ
lacked jurisdiction to,adjudicate the breach of contract claim., and (2) that she did not violate the
terms of the settlement because the Department’s substantial-evidence letter gave her only two
options, to ask the Department to file a claim on her behalf or to file a lawsuit herself. NSI filed a
reply countering Mustafa’s arguments. NSI also sought attorney fees and costs as a sanction
against Mustafa, on the basis that the complaint was groundless in light of the settlement.
110

The ALJ issued a written recommendation that the complaint be dismissed because it was

barred by the settlement in the New York case. She also recommended that NSI be awarded fees ■
and costs, finding that Mustafa’s “inappropriate pursuit of thfej matter before the Commission **rtcaused unnecessary costs to NSI.” After further proceedings, the ALJ awarded NSI $15,780 in
fees and costs. The Commission issued an order adopting the ALJ’s recommendations and
declining further review. Mustafa asked the Commission to rehear the matter en banc. but the
Commission denied the petition.

111
112

II. ANALYSIS
In January 2017, Mustafa (acting pro se) filed the present petition for review of the

Commission’s decision, pursuant to Illinois Supreme Court Rule 335 (Ill. S. Ct. R. 335 (eff. Jan.
1, 2016)0 and section 8-111(B)(1) of the Illinois Human Rights Act (775 ILCS 5/8-lll(B)(l)
(West 2014)).-

The appeal was stayed for a period when Mustafa filed a bankruptcy petition.

•-4-

A-004
App.5a

126156

20201L App (2d) 170040-U

*13

It is important here to note the limits of Mustafa’s petition. Mustafa does not challenge the

correctness of the Commission’s decision to dismiss her complaint pursuant to the settlement
entered in the New York case. Her decision to forgo such an argument was wise. When the parties
to a settlement have not presented it to the Commission for approval, the Commission cannot
enforce its terms. Rather.-the parties must file suit separately to adjudicate any claimed breach of
the settlement agreement.

In re Watkins k State of Illinois Department of Corrections,

1990CF1303. at *4 (June 2. 1999).5 However, the Commission may take note of the fact that a
settlement exists even where the settlement was not presented to it for approval. Id. at *3. When
a settlement of the underlying complaint exists, the Commission will dismiss the complaint. “It is
the fact of the agreement, not approval of the agreement

which prevents the prosecution of the

claim.” Id:, see also In re Warren v. Fleming~Potter Co., Inc., 1995SF0776, at *2 (the
Commission “lacks jurisdiction to enforce settlement agreements entered into between the parties,
but may dismiss a case upon tire clear existence of a settlement agreement”). Mustafa does not
dispute that, in the settlement agreement, she agreed to withdraw her charge and not to pursue it
further in any forum. The Commission did not err in dismissing her complaint on the basis that it
was barred by the settlement.

2 Courts may rely upon and defer to previous decisions of an administrative agency unless
they are clearly wrong.

Macomb Education Ass’n, IEA-NEA v. Illinois Educational Labor

Relations Board, 265 Ill. App. 3d 194, 201 (1994); see also Kronon Motor Sales, Inc. v. Illinois
Pollution Control Board. 241 Ill. App. 3d 766,770 (1992) (relying upon an administrative decision
in the absence of case law, where the decision was not unreasonable or erroneous).
- 5-

A-005
SUBMITTED - 9728641 - Mona Mustafa - 7/10/2020 12:05 PM

App.6a

126156
20201L App (2d) 170040-U

114

Instead, Mustafa argues that the Commission’s decision was a “nullity" because the ALJ

improperly admitted Felsen and Labuda pro hac vice, so they were not permitted to practice law
in Illinois and any decision in proceedings in which they participated,must be set aside. Mustafa
concedes that, under the Commission’s regulations, attorneys may appear before the Commission
pro hac vice in the same manner as they may appear before a court under Illinois Supreme Court
Rule 707. 56 III. Admin. Code § 5300.560. At the time of the proceedings here, Rule 707 provided
that an attorney admitted in another jurisdiction “may in the discretion of any court of this State
be permitted to participate

in the trial or argument of any particular cause in which *** he or

she is employed.”
f 15

Given this broad discretion over pro hac vice admissions,- we will reverse only if the

tribunal’s decision was an abuse of that discretion. A tribunal abuses its discretion when its ruling
is arbitrary, fanciful, or unreasonable, or no reasonable person would take the view adopted by die
tribunal, or when its ruling rests on an error of law. People v>. Olsen, 2015 IL App (2d) 140267, *(j
11. Mustafa argues that the ALJ abused her discretion in granting the motion for pro hac vice
admission because the ALJ did not require proof of prior compliance with Rule 707.
16

To the extent that we can discern her argument,3 Mustafa appears to be arguing that Felsen

and Labuda were required to successfully apply to an Illinois court for pro hac vice admission
before the ALJ could grant their request. This argument misunderstands section 5300.560: by
providing that attorneys may be granted leave to practice pro hac vice before the Commission “in

3 Many of Mustafa’s arguments are disjointed and do not contain coherent legal argument.
To the extent that we can discern her arguments, we have addressed them herein. We find any
remaining arguments forfeited. Ill. S. Ct. R. 341(h)(7) (eft Feb. 6,2013).
- 6-

A-006
SUBMITTED - 9728641 - Mona Mustafa - 7/10/2020 12:05 PM

App.7a...........

126156

2020 ILApp (2d) 170040-1'

the same manner and circumstances’1 as under Rule 707, the regulation simply permits an ALJ to
gram such status on the same terms, and applying the same standards, as apply to a request for pro
hac vice admission before a court. Section 5300.560 does not require that the attorneys must first
apply to the courts for pro hac vice admission.
1 17

Mustafa also argues that Felsen and Labuda have violated section 12 of the Attorney Act

(705 ILCS 205/12 (West 2016)). The Attorney Act applies to attorneys seeking ongoing admission
to the Illinois bar, not,the temporary permission to appear in a single proceeding that is granted by
pro hac vice admission. Thus, the Attorney Act did not apply to Felsen’s and Labuda’s request to
appear pro hac vice before the Commission. Rather, such pro hac vice admission was governed
by section 5300.560 and Rule 707. Mustafa lias not shown that the ALJ abused her discretion in
granting the request to appeal'pro hac vice. This conclusion disposes of Mustafa’s argument that
the Commission decision was a nullity.
ij 18

Mustafa also argues that the Commission should have granted her request for a rehearing

en banc. Such requests "shall be viewed with disfavor” and may be granted “only upon a dear
demonstration [1] that a matter raises legal issues of significant impact or [2] that Commission
decisions are in conflict:.” 775 ILCS 5/8A-103(F)(2) (West 2016). Mustafa’s request for rehearing
en banc did not argue that either of these requirements; was present. Instead, her request simply
repeated her earlier arguments that NSI’s motion to dismiss was untimely and that Felsen and '
Labuda were not properly admitted. The Commission did not err in denying her request for
rehearing en banc.
«[ 19

Mustafa’s final argument on appeal is that her constitutional rights to equal protection and

due process were violated. However, Mustafa’s opening brief is devoid of details as to how exactly
this occutred. In her reply brief, she voices a host of complaints about the proceedings, but does

-7-

A-007
App.8a
SUBMITTED - 9728641 - Mona Mustafa - 7/10/2020 12:05 PM

126156
2020IL App (2d) 170040-U

not explain how any of them rise to the level of a constitutional violation and does not cite any
case law supporting such a conclusion. Accordingly, we find tins argument forfeited. Ill. S. Ct.
R. 341(h)(7) (eff. Jan. 1,2016); People ex ref. Illinois Department ofLabor v. E.R.H. Enterprises,
Inc., 2013 IL 115106, f 56. We likewise find Mustafa's unsupported claim that the Commission
, engaged in “spoliation” of the record forfeited.
* 20

Mustafa filed a motion asking this court to “take notice” that Felsen and Labuda engaged

in the unauthorized practice of law by writing us to explain that they had not filed an appearance
in the appeal because the appeal was properly directed only against the Commission. Mustafa also
asked that we sanction Felsen and Labuda for this letter. Her motion was taken with the case. We
now deny it.
III. CONCLUSION

V21
f 22

For the reasons stated, the judgment of the Illinois Human Rights Commission dismissing

the comDlaint is affirmed. Further, Mustafa’s motion to take notice and for sanctions is denied.
f 23

Affirmed.

A-GG8
SUBMITTED - 9728641 * Mona Mustafa - 7/10/2020 12:05 PM

